                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Does Not
                     Adequately Follow
                     National Security Information
                     Classification Standards
                     Report No. 14-P-0017               November 15, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                                Chris Baughman
                                                     Hilda Canes Garduño
                                                     Eric Lewis
                                                     Ryan Patterson
                                                     Byron Shumate




Abbreviations

CFR             Code of Federal Regulations
EO              Executive Order
EPA             U.S. Environmental Protection Agency
ISOO            Information Security Oversight Office
NHSRC           National Homeland Security Research Center
NSI             National security information
OARM            Office of Administration and Resources Management
OCA             Original classification authority
OHS             Office of Homeland Security
OIG             Office of Inspector General
SMD             Security Management Division



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov.
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

           1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T 

           Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 14-P-0017

                        Office of Inspector General                                                   November 15, 2013





                        At a Glance

Why We Did This Review              EPA Does Not Adequately Follow National
We evaluated the                    Security Information Classification Standards
U.S. Environmental Protection
Agency’s (EPA’s) classified          What We Found
national security information
practices as required by            Our review of both originally and derivatively 	           EPA’s national security
Section 6(b)(1) of the              classified documents generated by three offices            information could be
Reducing Over-Classification                                                                   improperly classified
                                    found that the EPA does not sufficiently follow            without improved
Act. In this report, we reviewed    national security information classification standards.    procedures.
a sample of documents
classified by the EPA to            Of the two originally classified documents we reviewed, portions of one needed
determine the appropriateness       different classification levels and the other contained numerical data that was
of the classification decisions     incorrectly transferred from another document. The National Homeland Security
and markings.                       Research Center in the Office of Research and Development agreed to correct
                                    the documents. We also noted that the approved classification guide and the
Information may be classified       three guides under review had narrow scopes, which limits their usefulness. The
so that it is protected against     three proposed guides have been in the approval process for 12 months when it
unauthorized disclosure in the      must take no more than 30 days. Additionally, the declassification process
interest of national security.      needs clarity since the one pending declassification request has also been in the
Such information must be            approval process for almost a year when it should take no more than 60 days.
appropriately marked to
indicate its classified status.     None of the 19 derivatively classified documents we reviewed completely met
Original classification means       the requirements of Executive Order 13526 and the implementing regulations.
the initial determination to        The derivative classifiers did not include some required information and did not
classify is made by an original     correctly transfer information from the source documents. As a result, those who
classification authority, and for   later access the information may not know how to protect it or be able to
the EPA the Administrator           properly identify or use it as a source for their own derivative decision. A lack of
serves as the sole original         training for derivative classifiers and incorrect information in the annual refresher
classification authority.           training given to all clearance holders contributed to the classification problems
Others can classify information     noted. The EPA had not promptly updated guidance. Not all cleared employees
derivatively on the basis of        who needed an element relating to designation and management of classified
classified source documents or      information as part of their performance evaluation had such an element.
classification guides.
                                     Recommendations and Planned Corrective Actions
This report addresses the
following EPA theme:
                                    We recommend that the Assistant Administrator for the Office of Administration
                                    and Resources Management assist EPA organizations to correct originally and
 Embracing EPA as a
                                    derivatively classified documents as needed, improve training, and develop a
  high performing organization.
                                    process to address declassification requests. We recommend that the Assistant
For further information,            Administrator for the Office of Research and Development submit a single,
contact our public affairs office   unclassified classification guide for approval. The action officials identified
at (202) 566-2391.                  corrective actions for all the recommendations, and with one exception,
                                    identified milestones to complete the actions. We recommend that the Associate
The full report is at:              Administrator for the Office of Homeland Security, working with others, develop
www.epa.gov/oig/reports/2014/       a process for approving classification guides since its reviews were delaying the
20131115-14-P-0017.pdf              process. This recommendation is unresolved because the action official did not
                                    concur; resolution will begin immediately upon issuance of the report.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                            THE INSPECTOR GENERAL




                                            November 15, 2013

MEMORANDUM

SUBJECT:	 EPA Does Not Adequately Follow National Security Information
          Classification Standards
          Report No. 14-P-0017

FROM: 	        Arthur A. Elkins Jr.

TO:	           Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Juan Reyes, Acting Associate Administrator 

               Office of Homeland Security 


               Lek Kadeli, Principal Deputy Assistant Administrator 

               Office of Research and Development 


This is our report on the subject review conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, resolution on recommendation 4 should begin immediately upon
issuance of the report. We are requesting a meeting of the action officials from the Office of Homeland
Security and the Office of Administration and Resources Management with the Assistant Inspector
General for the Office of Program Evaluation, to start the resolution process and attempt to obtain
resolution. If resolution is still not reached within 30 days, these action officials are required to complete
and submit a dispute-resolution request to the Chief Financial Officer.

Regarding recommendation 1, you are required to provide a written response to this report within
60 calendar days with a completion date for the planned corrective actions. Your response will be posted
on the OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain data
that you do not want to be released to the public; if your response contains such data, you should
identify the data for redaction or removal along with corresponding justification. We will post this report
to our website at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Carolyn Copper, 

Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or 

Eric Lewis, Product Line Director, Special Program Reviews, at (202) 566-2664 or lewis.eric@epa.gov. 

EPA Does Not Adequately Follow National                                                                                      14-P-0017
Security Information Classification Standards


                                   Table of Contents 


Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               4     


   2     Original Classification Processes Need Improvement ..................................                                      6


                 Portions of the Scientific Report Need Different Classification Levels .......                                     6

                 Originally Classified Security Classification Guide Had Errors ...................                                 7

                 Other Security Classification Guides Not Yet Approved .............................                                8

                 EPA Needs Timelier Declassification .........................................................                      9

                 Requirements for Original Classifier Training Were Mostly Met ..................                                   9

                 Conclusion...................................................................................................     10     

                 Recommendations ......................................................................................            10     

                 Agency Comments and OIG Evaluation .....................................................                          11 


   3     Derivative Classification Decisions Did Not Comply With Requirements ....                                                 12


                 Required Information Was Missing or Incorrect .........................................                           12 

                 Information Was Incorrectly Transferred ....................................................                      14 

                 NSI Program Team Found and Reported Problems With 

                    Derivative Decisions ..............................................................................            15 

                 Derivative Classifier Training Not Implemented ..........................................                         16 

                 Annual Refresher Training Lacked Required Elements ..............................                                 16 

                 Not All Classifiers Were Evaluated on NSI Requirements ..........................                                 17 

                 Conclusion...................................................................................................     18     

                 Recommendations ......................................................................................            18     

                 Agency Comments and OIG Evaluation .....................................................                          19 


   Status of Recommendations and Potential Monetary Benefits..............................                                         20




Appendices
   A     EPA OIG Reports Address Section 6(b) of Public Law 111-258 ...................                                            22

   B     Errors in the Derivative Documents ................................................................                       23

   C     Agency Response to Draft Report ...................................................................                       24 

   D     Email From the Information Security Oversight Office .................................                                    30 

   E     Distribution ........................................................................................................     32

                                            Chapter 1

                                            Introduction
Purpose
                 This report complies with the Reducing Over-Classification Act (Public Law
                 111-258 of October 7, 2010). Section 6(b)(1) of the act requires the Inspector
                 General of each agency with an officer or employee who is authorized to make
                 original classifications, in consultation with the Information Security Oversight
                 Office (ISOO):1

                          (A) to assess whether applicable classification policies, procedures,
                          rules, and regulations have been adopted, followed, and effectively
                          administered within such department, agency, or component; and
                          (B) to identify policies, procedures, rules, regulations, or
                          management practices that may be contributing to persistent
                          misclassification of material within such department, agency or
                          component.

                 The law requires that Inspectors General complete two evaluations by
                 September 30, 2016. The initial evaluation must be completed no later than
                 September 30, 2013. This report, along with two prior U.S. Environmental
                 Protection Agency (EPA) Office of Inspector General (OIG) reports, constitute
                 the initial evaluation. Appendix A addresses how our three reports satisfy the
                 requirements of the Reducing Over-Classification Act.

                 The specific objective for this report was to review a representative sample of
                 EPA’s originally and derivatively classified document to determine:

                      1.	 Whether appropriate classification markings were applied in a manner
                          consistent with applicable classification policies, procedures, rules and
                          regulations.
                      2.	 The appropriateness of the original and derivative classification decisions
                          to identify policies, procedures or management practices that may be
                          contributing to misclassification of material.

Background
                 Executive orders (EOs) since 1940 have directed governmentwide information
                 classification standards and procedures. Such programs must comply with the
                 December 2009 EO 13526, “Classified National Security Information,” which

1
 ISOO is responsible to the President for policy and oversight of the governmentwide security classification system
and the National Industrial Security Program. ISOO is a component of the National Archives and Records
Administration and receives policy and program guidance from the National Security Council.


14-P-0017                                                                                                         1
            establishes the current principles, policies and procedures for classification. The
            EO prescribes a uniform system for classifying, safeguarding and declassifying
            national security information (NSI). EO 13526 expresses the President’s belief
            that this nation’s progress depends on the free flow of information, both within
            the government and to the American people. Accordingly, protecting information
            critical to national security and demonstrating a commitment to open government
            through accurate and accountable application of classification standards and
            routine, secure and effective declassification are equally important priorities.

            Certain Information Must Be Protected

            Pursuant to EO 13526 and its implementing regulations in the Code of Federal
            Regulations (CFR), i.e., 32 CFR Part 2001, classified information that is
            determined to require protection against unauthorized disclosure to prevent
            damage to national security must be marked appropriately to indicate its classified
            status. Such information must meet the following standards for classification:

               	 The information is owned, controlled or produced by or for the
                  U.S. government.
                The information falls within one or more of the eight categories of
                  information (reasons for classification) described in EO 13526 Section 1.4.
               	 The unauthorized disclosure of the information reasonably could be 

                  expected to result in damage to the national security. 


            The three U.S. classification levels, and correlating-expected damage to
            U.S. security if the information is disclosed inappropriately, are identified below.
            Except as otherwise provided by statute, no other terms shall be used to identify
            U.S. classified information.

                   Top Secret: Shall be applied to information, the unauthorized disclosure
                    of which reasonably could be expected to cause exceptionally grave
                    damage to the national security.
                   Secret: Shall be applied to information, the unauthorized disclosure of
                    which reasonably could be expected to cause serious damage to the
                    national security.
                   Confidential: Shall be applied to information, the unauthorized disclosure
                    of which reasonably could be expected to cause damage to the national
                    security.

            Following September 11, 2001, Congress was concerned that information was
            being classified at levels such that it could not be disseminated within the federal
            government or properly shared with state, local, tribal and private sector entities
            when necessary. Accordingly, the Reducing Over-Classification Act places an
            emphasis on avoiding “over-classification,” which is the designation of information
            as classified when the information does not meet one or more of the standards for
            classification in EO 13526. Pursuant to EO 13526, classified information shall be



14-P-0017                                                                                          2
            made accessible to the maximum extent possible to authorized holders. EO 13526
            further states that if significant doubt exists about the need to classify information it
            should not be classified; if significant doubt exists about the appropriate level of
            classification, information shall be classified at the lower level.

            Authorized holders of information (including those outside the classifying
            organization) who, in good faith, believe that its classification status is improper
            are encouraged and expected to challenge the classification status of information.
            According to 32 CFR 2001.14(b)(3), an agency shall provide an initial written
            response to a challenge within 60 days.

            Information May Be Classified by an Original Classification Authority

            Original classification means an initial determination that information requires
            protection against unauthorized disclosure in the interest of national security.
            Information may be originally classified only by original classification authorities
            (OCAs). OCAs are individuals authorized in writing—either by the President,
            Vice President, agency heads or other officials designated by the President—to
            initially classify information. The EPA Administrator serves as the EPA’s sole
            OCA; since 2004 the Administrators have originally classified eight documents.
            When originally classifying information, the OCA must be able to identify and
            describe the damage to national security that would be caused by its unauthorized
            disclosure. According to 32 CFR 2001.71(c), OCAs must receive detailed training
            on proper classification and declassification (with an emphasis on avoiding over-
            classification) before originally classifying information, and at least once per
            calendar year after that.

            Information May Be Classified Derivatively

            All personnel with an appropriate security clearance can perform derivative
            classification unless an agency limits this activity to specific personnel.
            Information may be derivatively classified from a source document or
            classification guide. According to 32 CFR 2001.71(d), all personnel who apply
            derivative classification markings must receive training on the proper application
            principles of EO 13526 prior to derivatively classifying information and at least
            once every 2 years thereafter. The regulations describe the elements that must be
            present in the training for persons who apply derivative classification markings.

            According to the regulations, security classification guides help ensure
            classification decisions are consistent and uniform. An OCA must approve each
            guide. The guide must state precisely the elements of information to be protected,
            as well as which classification level applies to each element of information, and,
            when useful, specify the elements of information that are unclassified. In addition,
            agencies must incorporate original classification decisions into security
            classification guides as soon as practicable. Further, the regulations encourage
            those preparing guides to consult users of guides for input. Section 1.3(e) of



14-P-0017                                                                                          3
            EO 13526 provides for exceptional cases, which are when someone who does not
            have original classification authority originates information that they believe
            requires classification. Such information shall be promptly provided to an agency
            with appropriate subject matter interest and classification authority, which must
            decide within 30 days on whether to classify the information.

            EPA Has a Program to Classify and Protect NSI

            EPA has had a program to safeguard classified NSI since 1972, although ISOO
            considers the amount of classification activity to be minute. EPA creates,
            receives, handles and stores classified material because of its homeland security,
            emergency response and continuity missions. The Assistant Administrator for the
            Office of Administration and Resources Management (OARM) has been
            delegated overall authority for the NSI program. The Assistant Administrator
            may, and has, delegated much of this authority to the OARM Security
            Management Division (SMD) within the OARM Office of Administration. The
            SMD created an NSI program team to manage the program. In addition, all major
            EPA offices assigned at least one employee as an NSI representative to coordinate
            the program at their organization. The EPA’s National Security Information
            Handbook identifies the official policies, standards and procedures for EPA
            employees and nonfederal personnel who have access to classified NSI.

            Although the EPA has a process for making original classification decisions,
            including approving security classification guides, there are no timelines
            associated with the process. The key steps in the current approval process are:

                  The EPA program office creates and marks the document. 

                  The SMD performs an administrative review. 

                  The Office of Homeland Security (OHS) within the Office of the 

                   Administrator evaluates the classification levels assigned.
                  The EPA Administrator makes an original classification decision.

Scope and Methodology
            We performed our review from February through September 2013. We conducted
            our work in accordance with generally accepted government auditing standards
            issued by the Comptroller General of the United States. Those standards require
            that we plan and perform the evaluation to obtain sufficient, appropriate evidence
            to provide a reasonable basis for our findings and conclusions based on our
            objectives. We also reviewed internal controls over program operations and
            compliance with applicable laws and regulations. The evidence obtained provides
            a reasonable basis for our findings and conclusions based on our evaluation
            objectives.

            For this phase of our initial evaluation under the Reducing Over-Classification
            Act, we reviewed the two most recent original classification decisions, both dated


14-P-0017                                                                                     4
            May 2012, as well as 19 of the derivatively classified documents (excluding
            emails) authored by the EPA between January 2010 and December 2012. At
            ISOO’s direction, we narrowed our review to classified documents created after
            the December 2009 issuance of EO 13526. The derivative decisions were made
            by three EPA organizations: OHS, the National Homeland Security Research
            Center (NHSRC) in the Office of Research and Development, and the OIG (made
            by the OIG’s Office of Investigations). In addition, we:

                  Examined the results of the fundamental classification guidance review.
                  Examined the results of self-inspection reporting.
                  Examined applicable Standard Form 311, “Agency Security Classification
                   Management Program Data.”
                  Reviewed relevant policies, regulations and related reports.
                  Reviewed the NSI annual refresher training to determine whether it was
                   consistent with NSI guidance.
                  Compared the derivatively classified documents with the corresponding
                   source material when available.
                  Interviewed EPA’s sole original classification authority and four
                   derivative classifiers.
                  Interviewed staff responsible for security training and related policy
                   development and implementation, including staff from SMD, NHSRC
                   and OHS.

            As directed by the Reducing Over-Classification Act, we consulted with ISOO
            and coordinated throughout the evaluation with other Inspector General offices
            with the intent of ensuring that our evaluations followed a consistent methodology
            to allow for cross-agency comparisons. We also used an evaluation guide that was
            prepared by a working group of participating Inspectors General under the
            auspices of the Council of the Inspectors General on Integrity and Efficiency.
            To discern whether agency policies and practices were consistent with EO 13526
            and the regulations, we used the following from the evaluation guide:

                  Methodology for determining the appropriateness of an original
                   classification decision.
                  Original classification authority interview coverage.
                  Methodology for determining appropriateness of a derivative classification
                   decision.
                  Derivative classifier interview coverage.




14-P-0017                                                                                   5
                                  Chapter 2

 Original Classification Processes Need Improvement 

            The EPA needs to improve several activities related to the original classification
            of information. We reviewed two originally classified documents that were
            prepared by NHSRC: a scientific report and a security classification guide for that
            scientific report. We found that portions of the scientific report needed different
            classification levels, and that the guide contained incorrect instructions and
            numerical data that was incorrectly transferred from another document. NHSRC
            agreed to correct the documents. We also noted that the approved classification
            guide, as well as three guides under review (but not yet originally classified),
            covered information previously classified by the Administrator, which limits their
            usefulness. Further, the three proposed guides have been in the approval process
            for a year when approvals must, by executive order, take no more than 30 days. In
            addition, an earlier document originally classified by the EPA will reach its
            declassification date in 2014. The declassification process needs clarity since a
            pending declassification request has been in the approval process for almost a
            year when it should, according to federal regulation, take no more than 60 days.
            This has delayed making currently classified information more accessible.

Portions of the Scientific Report Need Different Classification Levels
            The originally classified scientific report had classification inconsistencies and
            errors. We brought these matters to the attention of the NHSRC staff, who offered
            satisfactory responses and agreed to correct the document. As a result, the scientific
            report may need to go through the original classification process again.

            We found that different classification levels were assigned to the same
            information within the scientific report. Four narrative portions marked
            “Confidential” contained information that was marked “Secret” in tables and
            figures. Another paragraph marked “Secret” contained information marked
            “Unclassified” elsewhere. NHSRC staff agreed portions should be consistently
            marked and plan to appropriately revise the document by increasing certain
            markings to a higher classification level.

            We also identified portions of the scientific report that seemed to be over-
            classified. The report acknowledged there were doubts as to whether the release
            of some of the report data would constitute a threat to national security but the
            information was nonetheless classified. As noted in chapter 1, EO 13526 states
            that if there is doubt, information should be unclassified or classified at a lower
            level. In response to our questions, NHSRC offered satisfactory explanations for
            classifying the information and explained the threat that the release of such
            information would pose.


14-P-0017                                                                                         6
                   One of the most effective ways to protect classified information is through
                   applying standard classification markings and dissemination control markings.
                   Dissemination controls are control markings that identify the expansion or
                   limitation on the distribution of information. These markings are in addition to
                   and separate from the levels of classification defined by EO 13526. We
                   determined the scientific report was marked correctly, with one minor formatting
                   exception. Dissemination controls within portion marks must be preceded by a
                   double slash; however, some portion marks in this document had dissemination
                   controls preceded by a single slash. For instance, a classified paragraph was
                   incorrectly portion marked as U/FOUO rather than as U//FOUO.2 Having one
                   versus two slashes can change the meaning.

Originally Classified Security Classification Guide Had Errors
                   The security classification guide for the scientific report gave incorrect
                   instructions to those using it and contained numerical data different than that in
                   the scientific report. It also had some portion marks with dissemination controls
                   preceded by a single slash instead of two slashes. This is the May 2012 security
                   classification guide to which EPA referred in the June 2012 report on its
                   fundamental classification guidance review.

                   The security classification guide provided incorrect instructions to would-be
                   derivative classifiers:

                        	 Title 32 CFR 2001.22(b) requires derivative classifiers to be identified by
                           name and position or by personal identifier. However, the guide only
                           instructs derivative classifiers to supply their names.
                        	 Title 32 CFR 2001.22(e) instructs derivative classifiers to carry forward
                           the declassification instructions from the source document. However, the
                           guide did not specify this and instead instructs the derivative classifier to
                           declassify “25 years from the date of document creation.” The guide did
                           not clarify if the document creation date was in reference to the guide
                           itself or the derivative document based on the guide.

                   The security classification guide included classified numerical data that did not
                   match the source data from the scientific report. The numerical data were
                   classified at the same level in both documents. However, we believe the
                   inconsistency in the data may confuse those using the guide. In response to our
                   questions, NHSRC staff agreed to correct the numerical data taken from tables in
                   the scientific report. As a result, the classification guide may need to go through
                   the original classification process again unless it is superseded, as discussed
                   below.



2
    U = Unclassified. FOUO = For official use only.


14-P-0017                                                                                                  7
Other Security Classification Guides Not Yet Approved
            Three other security classification guides have been in the process for an original
            classification decision since August 2012. According to the EO, classification
            guides will facilitate the proper and uniform derivative classification of
            information. Although NHSRC submitted an initial guide that was broad in scope,
            OHS wanted the guide to be narrow in scope, i.e., pertain to a single document
            originally classified by the Administrator. EPA clearance holders need broader
            guidance to discern what information the EPA should classify. With such a
            classification guide approved, NHSRC will not need to process so many
            documents as original classification decisions. This would shorten the
            classification process by removing two steps. The omitted steps would be
            (1) obtaining the Administrator’s approval and (2) actions needed because of such
            approval.

            Classification Guide With a Broader Scope Would Be More Useful

            NHSRC staff initially prepared a broad security classification guide that would
            encompass both past and possible future work. They designed the guide to help
            NHSRC staff understand what must be classified and what can be made publicly
            available. NHSRC considers this part of its risk assessment on each new project.
            According to a NHSRC staff member, the OHS required NHSRC to replace the
            broad guide with a narrowly-scoped guide that addressed only one of the original
            classification decisions by the EPA Administrator. NHSRC submitted three
            additional guides, narrowly scoped along the lines of original classification
            decisions. This resulted in four security classification guides narrowly scoped to
            reflect the original classification decisions already made. The narrow scope of these
            guides is consistent with information included in the 2012 annual refresher training.
            As noted in chapter 3, the training described a security classification guide as an
            aggregation of items from original classification decisions made by an agency or
            department. However, this description of classification guides does not completely
            reflect all of the requirements in the regulations at 32 CFR 2001.15(b).

            According to an OHS senior staff member, the EPA needs narrowly scoped
            security classification guides because the originally classified documents mixed
            classified with unclassified information in the same portions. Instead, the
            classified material should have been in separate portions or an appendix.
            Thus, a derivative classifier would clearly understand what must be protected.

            Based on the requirements in the regulations, a single guide could address both
            past original classification decisions and future NHSRC work. NHSRC, not OHS,
            would be using the guide since it would describe the type of information NHSRC
            might encounter or create during their work. With a broad security classification
            guide, NHSRC staff could classify scientific reports without going through the
            original classification process. This would shorten the classification process by
            reducing the number of steps. As discussed in chapter 3, SMD oversees derivative


14-P-0017                                                                                      8
            classification decisions by EPA staff, so it can monitor the NHSRC decisions for
            the concerns identified by OHS staff.

            Delays Issuing Other Guides

            NHSRC staff provided three security classification guides to SMD and OHS in
            July and August 2012. Following SMD approval, the guides were sent to the OHS
            no later than September 2012, where they remain. Despite inquiries from NHSRC
            officials, NHSRC has not received feedback from OHS on the status of the
            security classification guides. As noted in Chapter 1, EO 13526 requires a
            classification decision within 30 days for exceptional cases, which need an
            original classification decision. According to an OHS senior intelligence advisor,
            the guides were classified working papers, which may be retained for 180 days
            before finalization. When told by OIG staff that 180 days had been exhausted, the
            staff member responded that the review process was still incomplete and the
            guides were not ready to be processed. The SMD staff had no explanation for the
            OHS delay. They had also asked OHS for status information, but did not receive
            an adequate response.

EPA Needs Timelier Declassification
            EPA needs to declassify information in a timelier manner. NHSRC staff
            challenged the classification of an EPA originally classified document in July
            2012 by recommending that it be declassified. When a classification decision is
            challenged, the regulations require an initial response within 60 days. SMD staff
            completed their review of the challenge and forwarded it to OHS no later than
            September 2012; the action has remained in OHS. SMD was unable to get update
            information from OHS. When asked about the delay, a senior OHS staff member
            said this was the first declassification action processed by the EPA and extra time
            was necessary to complete the action properly. Since another originally classified
            document will reach its declassification date in 2014, the declassification process
            needs to work more quickly. To ensure the free flow of information, according to
            EO 13526, routine, secure and effective declassification is an important priority.

Requirements for Original Classifier Training Were Mostly Met
            The former Administrator received training for original classifiers in 2011 and
            2012. As noted in chapter 1, the regulations require that the annual training for
            OCAs must include proper classification and declassification, and emphasize
            avoiding over-classification. We found that the 2012 training materials failed to
            cover declassification, one of the required training elements. We were unable to
            evaluate the adequacy of the 2011 training because that training material was not
            available.

            We believe the former Administrator demonstrated adequate knowledge of
            classification management procedures. During her 4 years in the position, the


14-P-0017                                                                                       9
            former Administrator made only three original classification decisions, all related
            to the same scientific report. Given her infrequent use of her original
            classification authority, she relied on assistance from EPA experts to help her
            make classification decisions. However, the former Administrator was aware of
            the importance of avoiding over-classification.

Conclusion
            Because of the OIG’s questions about the originally classified documents we
            reviewed, NHSRC agreed to make corrections and offered reasonable
            explanations for its classification decisions. As a result, these documents may
            need to undergo another original classification decision. In addition, the EPA
            needs to improve several activities related to the original classification of
            information, including the process and speed with which (1) security
            classification guides are approved so information can be derivatively classified in
            a proper and uniform manner and (2) originally classified documents are
            declassified so the information may flow freely as stated in the EO 13526. Also,
            NHSRC needs a classification guide that will cover both past original
            classification decisions and future work.

Recommendations
            We recommend that the Assistant Administrator for the Office of Administration
            and Resources Management:

               1. Work with the Office of Research and Development to:

                       a.	 Correct the marking errors in the two originally classified
                           documents reviewed by the OIG (the scientific report and security
                           classification guide).
                       b.	 Change the classification levels for portions of the scientific report.
                       c.	 Correct the security classification guide.

               2.	 Provide annual OCA training to the Administrator that complies with the
                   regulatory requirements.

               3.	 Develop a process for declassifying, within 60 days, information classified
                   by EPA.

            We recommend that the Associate Administrator for the Office of Homeland
            Security:

               4.	 Work with the Assistant Administrator for OARM to develop a process
                   for approving classification guides within the 30 days specified in
                   EO 13526.



14-P-0017                                                                                      10
                 We recommend that the Assistant Administrator for the Office of Research and
                 Development:

                     5.	 Submit to the NSI program team a single, unclassified classification guide
                         that covers both past and future EPA scientific research to replace the
                         multiple guides.

Agency Comments and OIG Evaluation
                 On behalf of the three action officials, the Assistant Administrator for OARM
                 provided official comments on our draft report. Agency comments are in
                 Appendix C. Appendix D is “Attachment 2” cited in the agency comments.

                 The agency’s comments included suggested wording changes, which we
                 incorporated as appropriate. The agency action officials concurred with
                 recommendations 1, 2 and 5. For recommendation 3 (which was
                 recommendation 4 in the draft report), an alternative action was proposed.
                 We considered the alternative action acceptable and revised the recommendation
                 accordingly. The response included timeframes for completing the actions on
                 recommendations 2, 3 and 5, so these recommendations are resolved and open
                 pending completion of the agreed-to actions. A specific date for completing the
                 corrective action on recommendation 1 was not given; this recommendation is
                 unresolved until it is provided.

                 The Office of Homeland Security did not concur with recommendation 4
                 (which was recommendation 3 in the draft report) regarding a process to approve
                 classification guides. To support its position, OHS indicated it is the EPA’s
                 position, supported by ISOO, that classification guides are not required. However,
                 responding to one of our prior reports,3 the Deputy Administrator stated in a
                 memorandum to the Inspector General dated December 22, 2011, that the EPA
                 would prepare classification guides. Below is an excerpt from that memorandum.
                 Recommendation 4 is unresolved. The audit resolution process starts immediately
                 upon report issuance.

                         In consultation with the Office of Homeland Security, the Office of
                         Administration and Resources Management and the Office of
                         General Counsel, we have determined that these recommendations
                         [to approve and distribute classification guides] are helpful in light
                         of evolving information-sharing initiatives for classified EPA
                         products. The agency will implement them beginning with an
                         initial classification guide that addresses materials most recently
                         originally classified. . . .



3
 EPA Should Prepare and Distribute Security Classification Guides (Report No. 11-P-0722 issued September 29,
2011).


14-P-0017                                                                                                  11
                                   Chapter 3

              Derivative Classification Decisions 

              Did Not Comply With Requirements 

            None of the 19 derivatively classified documents the OIG reviewed completely
            met the requirements of EO 13526 and 32 CFR Part 2001. The derivative
            classifiers did not include some required information and did not correctly
            transfer information from the source documents. As a result, those who later
            access the information may not know how to protect the information or be able to
            properly identify or use it as a source for their own derivative decision. During
            fiscal year 2012, the EPA NSI program team started reviewing derivative
            classification decisions and reported to ISOO problems with derivative decisions
            similar to the problems we found. We identified a lack of training for derivative
            classifiers and incorrect information in the annual refresher training given to all
            clearance holders as management practices that may be contributing to
            misclassification of material or incorrect markings. EPA had not updated the
            guidance it provided to cleared staff members. Not all cleared employees who
            needed one had an element relating to designation and management of classified
            information as part of their performance evaluation.

Required Information Was Missing or Incorrect
            All 19 derivatively classified documents reviewed either lacked required
            information and/or included incorrect information. The regulations require that
            each derivative document identify who classified the document, the source
            document(s) from which the classified information was derived, and a
            declassification date or instructions. The information appears in what is called a
            classification authority block (referred to as the classification block in the NSI
            Handbook). The NSI Handbook instructs that every classified document must
            contain a classification block in the lower-left corner on the front cover, title page,
            or first page. Besides the classification block, classified documents must have
            proper overall markings (e.g., the classification level at the top and bottom of each
            page), portion markings, and dissemination control and handling markings.
            We considered these and other requirements when reviewing the derivative
            documents. Appendix B is a summary of the number of derivative documents
            reviewed, along with the key information missing.

            Classification Authority Block

            Required information related to derivative classifier identification, source
            documents and declassification date was not always present in EPA derivative
            documents. Six of the 19 derivative documents had no classification authority
            block. For these six instances, we had to ask the EPA staff responsible for the


14-P-0017                                                                                       12
            document to identify the derivative classifier and the source documents. Seven of
            the 13 documents with a classification block did not identify the derivative
            classifier. Prior to the June 2010 effective date for EO 13526, regulations did not
            require derivative classifier identification in the classification block. Five of these
            seven instances occurred during a 19-month period between the EO effective date
            and the January 2012 revision of the EPA NSI Handbook, which was updated to
            include the derivative classifier identification requirement. Agency guidance
            lagging behind the policy changes may have resulted in derivative classifiers not
            identifying themselves in the classification block. Thus, derivative classifiers
            relying on EPA guidance may have been unaware of the new requirement.

            List of Sources

            Of the 13 derivative documents with a classification block, eight indicated they
            were derived from multiple sources. When there are multiple sources, the
            derivative classifier must include a listing of all the source materials on, or attached
            to, each derivatively classified document. None of the eight documents had a
            source list on or attached to it. For seven of the eight documents, someone other
            than the derivative classifier prepared the list after the fact because the derivative
            classifier had left the EPA. The classifier for the eighth document had the list but it
            was not with the document. Also, one of the derivative documents that identified
            only one source document was actually derived from multiple sources.

            Overall Page Markings

            Eleven documents had page marking errors. Most were relatively minor, like a
            misplaced page banner. Four were more serious—one because the classification
            level was incorrect and three because a dissemination control marking was missing.

            Portion Markings

            Eighteen of the 19 documents had errors in their portion markings. In total,
            one-third of the pages had one or more portion marking errors. Some were minor
            errors, like having only one slash instead of the required two slashes between
            marking categories. Others were more serious, such as not marking some portions
            of the document. Without proper portion marks, those with access to the
            document will not know what level of classification and safeguarding applies to
            the document. Also, if they want to use the information in a derivatively classified
            document they will not know how to correctly mark it.

            Date

            Ten of the 19 derivative documents had no date. Of the nine with a date, three
            showed only the month and year, not a specific date. A date is needed so that it
            can be cited when describing the source of a derivative document, as required by
            the regulations.



14-P-0017                                                                                        13
Information Was Incorrectly Transferred
            Derivative classifiers did not always correctly transfer information from the
            source documents to the derivative document. We compared 18 of the 19
            derivative classified documents to their identified source documents and found
            that all 18 documents had mistakes in transferring information. These mistakes
            ranged from portion-marking errors to document-level issues. The EPA
            organization responsible for the derivative documents was unable to provide the
            source document for one of the sample items. Appendix B identifies the number
            of documents with transfer problems.

            Cited Source Was an Inappropriate Basis for a Derivative Decision

            We found EPA derivatively classifying EPA-originated research on a basis not
            allowed by the regulations. Three of the derivative documents were reports on
            scientific studies that EPA performed for another federal agency. As their source,
            these three derivative documents cited an instructional email from an outside
            agency. This instructional email contained vague classification instructions (which
            themselves were classified) and did not meet the requirements in the regulations to
            be a security classification guide. The EPA derivative classifier told us he could not
            verify the email author’s identity. Since the EPA performed the research but did not
            have an appropriate basis to derivatively classify the results, we concluded that the
            EPA should have originally classified these research reports.

            Proposal Reviews Were Over-Classified

            Three derivative documents marked “Secret” were reviews of proposed scientific
            studies prepared for an outside agency. One of the reviews contained only an
            unclassified proposal title, a document control number and the name of the
            reviewer but was still marked “Secret.” Another of these reviews was of a
            proposal that had no portion markings. However, none of the review comments
            contained excerpts from this proposal. Similarly, for the third review, none of the
            reviewer’s comments included classified portions in the proposal. The form used
            for these reviews came from the outside organization and had a dropdown field to
            select the overall classification level. The EPA reviewer could not recall if he had
            selected the classification level or if the form came with the level already selected.

            Transfer Errors or Omissions

            Of the 18 derivative documents we compared to source document(s), the
            derivative classifiers did not properly transfer the declassification date for
            13 documents. The derivative classifier must carry forward the instructions on the
            “Declassify On” line from the source document to the derivative document. If
            there was more than one source document, the “Declassify On” line must reflect
            the longest duration of any of its sources. However, the derivative classifier
            incorrectly transferred the declassification date for seven documents. For six other


14-P-0017                                                                                      14
            documents, the declassification date from the appropriate source was not
            transferred because the derivative document did not have a classification block.

            Three of the derivative documents contained classified portions that did not come
            from the identified sources. For these, we concluded there were one or more
            unidentified source documents. For example, one portion mentioned activity in
            2011 even though none of the sources were dated later than 2010. Another portion
            without a source in this same document was marked “Secret”; the NSI
            representative told us this was a mistake and the derivative classifier (who is no
            longer with EPA) was being over-zealous.

            There were multiple errors with another document derived from three sources.
            One portion from the first source was over-classified in the derivative document.
            Parts of the derivative document came from a second source, which had no portion
            marks, so we could not determine whether it was under- or over-classified. Portions
            that came from the third source were under-classified; the information classified in
            the third source as “Secret” was marked “Confidential” in the derivative document.
            The third source was an EPA-generated research report that, according to the
            derivative classifier, should have been classified as “Confidential” even though it
            was marked “Secret.”

 NSI Program Team Found and Reported Problems With
 Derivative Decisions
            As part of its 2012 self-inspection, the EPA reported to ISOO problems with
            derivative decisions similar to the problems we found. During fiscal year 2012, the
            EPA NSI program team started reviewing derivative classification decisions. Their
            reviews were to ensure that: (1) classification markings are carried over and applied
            appropriately, (2) the overall classification is applied throughout each document,
            and (3) the derivative classification block contains the applicable information to
            include identifying sources. They reviewed 56 derivative classification decisions—
            approximately 25 percent of EPA’s derivative decisions at the time. In the
            November 2012 report to ISOO, the EPA reported that none of the sampled
            decisions included a list of sources used when derived from multiple sources.

            During fiscal year 2013, the NSI program team reviewed 26 recent derivative
            decisions. They found the multiple-source issue persisted as the multiple-source
            list was not present in 14 documents. In addition, they found:

                  An incorrect declassification date in 16 documents. 

                  Portion marking errors in 13 documents. 

                  Overall classification marking errors in six documents. 

                  The Classification block missing in six documents. 

                  The “classified by” line missing in four documents. 

                  Working paper marking errors in four documents. 




14-P-0017                                                                                      15
Derivative Classifier Training Not Implemented
            The EPA has not met the requirements in the regulations for training the
            derivative classifiers. The NSI program team proposed additional training for
            derivative classifiers but has not yet implemented the training.

            EPA does not offer derivative classifier training. As noted in chapter 1, the
            training must emphasize avoiding over-classification and cover certain
            information. Without this required training at least every 2 years, the regulations
            require the EPA to suspend the authority of the individual to apply derivative
            classification markings.

            We found EPA derivative classifiers had gaps in their knowledge of derivative
            classification procedures. None of the four derivative classifiers we interviewed
            succeeded in answering all of our knowledge test questions. In addition, some of
            the subjects’ knowledge gaps appeared to lead to marking errors in their
            documents. For example, when asked if a list of source documents was kept with
            documents derived from multiple sources, one respondent told us the list was kept
            separate. This respondent created one of the documents derived from multiple
            sources that did not have a source list with the document.

            Although the EPA does not offer training for derivative classifiers, it is available
            elsewhere. An example is the Web-based Classification Management and the
            IC [Intelligence Community] Markings System course offered by the Office of the
            Director of National Intelligence. This course meets the minimum national
            training requirements for derivative classifiers established in EO 13526 and the
            regulations.

            In its 2012 annual self-inspection report, the EPA informed ISOO it had
            identified a need for additional training related to marking derivative documents,
            identifying multiple sources where applicable, and marking requirements in the
            electronic environment (specifically as it relates to email on the Homeland Secure
            Data Network). It told ISOO that clearance holders would be provided with
            derivative classifier training as part of its mandatory 2012 NSI annual refresher
            training. However, as discussed below, we found this was not done. The EPA also
            told ISOO it would make stand-alone derivative classifier training available to
            clearance holders during fiscal year 2013 and ensure that all clearance holders are
            trained. However, this has not yet been done.

Annual Refresher Training Lacked Required Elements
            The regulations require that annual refresher training be given to all cleared
            employees who create, process or handle classified information. However, the
            training EPA provided in 2011 and 2012 was inconsistent with some aspects of
            the regulations. It also did not cover all the information needed by derivative
            classifiers, so it did not fulfill the requirements for derivative classifier training.


14-P-0017                                                                                             16
            The 2011 annual refresher training did not cover seven of the nine required
            elements for derivative classifiers, and the 2012 training did not cover four of
            these elements. The four elements required for derivative classifiers not covered
            by either the 2011 or 2012 refresher training concerned classification prohibitions
            and limitations, sanctions, classification challenges and information sharing.
            In addition, neither the 2011 nor 2012 training emphasized avoiding
            over-classification.

            The annual refresher training in 2011 included information inconsistent with the
            regulations. For example, the training omitted that a derivative classifier may make
            a derivative classification decision based on a security classification guide. Instead,
            the training only mentioned derivatively classifying an item based on a classified
            original document. This lack of a reference to security classification guides limited
            what source a derivative classifier might use to classify information.

            The annual refresher training in 2012 also included information that was
            inconsistent with the regulations. The training mistakenly instructed that:

               	 The classification block of a derivatively classified document should
                  include a “Reason” line; the regulations do not require a “Reason” line.
               	 When the “Derived from” line indicates multiple sources, the list of these
                  sources must be attached; the regulations allow the derivative classifier the
                  option of incorporating the list in the document.
               	 A security classification guide is an aggregation of items from an originally
                  classified document; the regulations require a security classification guide to
                  identify elements of information that must be protected without stipulating
                  that the information must already be in an originally classified document.  

            Also, the training slides had no examples of overall markings or portion marking
            with more than one category, such as "SECRET//NOFORN" or "(S//NF)."

Not All Classifiers Were Evaluated on NSI Requirements
            Not all cleared employees who needed it had an element or item relating to
            designation and management of classified information in their performance
            evaluation. EO 13526 requires such an element or item to be evaluated in the
            rating for personnel whose duties significantly involve handling classified
            information, including those who regularly apply derivative classification
            markings. We reviewed the performance evaluations—specifically, the critical
            element related to national security—for SMD staff and the derivative classifiers
            we interviewed. The performance evaluations for three of the four derivative
            classifiers interviewed included a critical element related to NSI activities. The
            fourth derivative classifier, who was also a NSI representative, did not have a
            critical element related to NSI-related responsibilities.




14-P-0017                                                                                      17
            EO 13526, 32 CFR 2001 and the NSI Handbook all provide that sanctions can be
            imposed for violating NSI requirements. Further, the Reducing Over-
            Classification Act authorizes agencies under Chapter 45 of Title 5, U.S. Code, to
            consider an employee’s consistent and proper classification of information when
            making cash awards; however, this assumes that the Office of Management and
            Budget is again allowing discretionary monetary awards.

Conclusion
            EO 13526 requires the EPA to protect information critical to our nation’s security.
            The errors we found in the 19 derivatively classified documents make it harder for
            those with access to each document to know what level of classification and
            safeguarding applies to it. During fiscal year 2012, the EPA NSI program team
            started reviewing derivative classification decisions to ensure they complied with
            EO 13526 and the regulations. They found deficiencies in ancillary issues not
            directly affecting the appropriateness of the derivative classification decision, and
            the deficiencies persisted into fiscal year 2013. Although the NSI program team
            identified lack of derivative classifier training as a weakness, the team has not
            provided the required training to date. Moreover, as long as incorrect information
            is presented in the annual refresher training given to all clearance holders, EPA
            lacks assurance that its cleared staff are aware of their responsibilities. This is
            occurring even though employees may be subject to appropriate sanctions if they
            violate any provisions of the EO or the regulations.

Recommendations
            We recommend that the Assistant Administrator for the Office of Administration
            and Resources Management:

               6.	 Assist the appropriate EPA organizations in bringing the derivative
                   documents reviewed by the OIG into compliance with EO 13526 and
                   32 CFR Part 2001. For example:

                       a.	 Attach or incorporate a source document list if derived from
                           multiple sources.
                       b.	 Correct the classification blocks to include the name and position
                           or personal identifier of the derivative classifier.
                       c.	 Declassify proposal reviews and other documents deemed
                           over-classified.
                       d.	 Convert derivatively classified documents to original
                           classifications.
                       e.	 Ensure consistency in portion marks from sources applied to
                           original documents.

               7.	 Provide NSI annual refresher training that is consistent with regulatory
                   requirements.


14-P-0017                                                                                     18
               8.	 Enforce the requirements in 32 CFR 2001.71(d) regarding derivative
                   classifier training.

               9.	 Remind the heads of EPA organizations that their staff who hold a security
                   clearance should have included in their performance evaluation a critical
                   element or item on the designation and management of classified
                   information if the individual is a security manager or specialist or has
                   duties that significantly involve creating or handling classified information
                   (e.g., NSI representatives).

Agency Comments and OIG Evaluation
            The action official concurred with recommendations 6, 7 and 8. For
            recommendation 9, an alternative action was proposed. We considered the
            alternative acceptable, but did not revise the recommendation since OARM is still
            the action official. The response included timeframes for completing these
            actions. Thus, these recommendations are resolved and open pending completion
            of the agreed-to actions.




14-P-0017                                                                                    19
                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                              Planned
 Rec.   Page                                                                                                 Completion   Claimed    Agreed-To
 No.     No.                         Subject                        Status1         Action Official             Date      Amount      Amount

  1      10    Work with the Office of Research and Development       U       Assistant Administrator for
               to:                                                               Administration and
                 a. Correct the marking errors in the two                      Resources Management
                    originally classified documents reviewed by
                    the OIG (the scientific report and security
                    classification guide).
                 b. Change the classification levels for portions
                    of the scientific report. 
                 c. Correct the security classification guide.
  2      10    Provide annual OCA training to the Administrator       O       Assistant Administrator for     12/30/13
               that complies with the regulatory requirements.                   Administration and
                                                                               Resources Management

  3      10    Develop a process for declassifying, within            O       Assistant Administrator for     3/30/14
               60 days, information classified by EPA.                           Administration and
                                                                               Resources Management

  4      10    Work with the Assistant Administrator for OARM to      U       Associate Administrator for
               develop a process for approving classification                    Homeland Security
               guides within the 30 days specified in EO 13526.

  5      11    Submit to the NSI program team a single,               O        Assistant Administrator for    12/30/13
               unclassified classification guide that covers both             Research and Development
               past and future EPA scientific research to replace
               the multiple guides

  6      18    Assist the appropriate EPA organizations in            O       Assistant Administrator for     9/30/14
               bringing the derivative documents reviewed by the                 Administration and
               OIG into compliance with EO 13526 and 32 CFR                    Resources Management
               Part 2001. For example:
                 a. Attach or incorporate a source document list
                    if derived from multiple sources.
                 b. Correct the classification blocks to include
                    the name and position or personal identifier
                    of the derivative classifier.
                 c. Declassify proposal reviews and other
                    documents deemed over-classified.
                 d. Convert derivatively classified documents to
                    original classifications.
                 e. Ensure consistency in portion marks from
                    sources applied to original documents.

  7      18    Provide NSI annual refresher training that is          O       Assistant Administrator for     12/30/13
               consistent with regulatory requirements.                          Administration and
                                                                               Resources Management

  8      19    Enforce the requirements in 32 CFR 2001.71(d)          O       Assistant Administrator for     3/30/14
               regarding derivative classifier training.                         Administration and
                                                                               Resources Management




14-P-0017                                                                                                                                   20
                                                                                                                                  POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                           Subject                           Status1        Action Official             Date      Amount      Amount

     9       19     Remind the heads of EPA organizations that their           O       Assistant Administrator for    12/30/13
                    staff who hold a security clearance should have                       Administration and
                    included in their performance evaluation a critical                 Resources Management
                    element or item on the designation and
                    management of classified information if the
                    individual is a security manager or specialist or has
                    duties that significantly involve creating or handling
                    classified information (e.g., NSI representatives).




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





14-P-0017                                                                                                                                           21
                                                                                          Appendix A

                  EPA OIG Reports Address Section 6(b)
                         of Public Law 111-258
Section 6(b) of the Reducing Over-Classification Act (PL 111-258) requires the Inspector
General of each agency with an officer or employee who is authorized to make original
classifications, in consultation with the ISOO, to carry out no less than two evaluations of that
agency. The first evaluation shall be completed by September 30, 2013, and the second by
September 30, 2016. The evaluations are to cover the following, with the second evaluation
being a review of the progress made pursuant to the results of the first evaluation:

    	 Assess whether applicable classification policies, procedures, rules, and regulations have
       been adopted, followed, and effectively administered within such department, agency, or
       component.
    	 Identify policies, procedures, rules, regulations, or management practices that may be
       contributing to persistent misclassification of material within such department, agency or
       component.

In consultation with ISOO, the Council of the Inspectors General on Integrity and Efficiency
issued a guide for conducting the initial evaluation under the Reducing Over-Classification Act.
The guide’s goal is to ensure that the OIG evaluations meet the above requirements and follow a
consistent methodology to allow for cross-agency comparisons. It identified five researchable
questions. The table below lists each question and the EPA OIG report that addressed it. Thus,
we completed the work required for the first evaluation. We plan to start work on the second
evaluation during fiscal 2015.

                       Question                                         EPA OIG Report
1. To what extent has the organization adopted         EPA Should Prepare and Distribute Security
classification policies, procedures, rules and         Classification Guides (Report No. 11-P-0722
regulations?                                           issued September 29, 2011)
2. To what extent do the organization classification
                                                       EPA’s National Security Information Program Could
policies, procedures, rules and regulations comply
                                                       Be Improved (Report No. 12-P-0543 issued
with existing Federal classification requirements,
                                                       June 18, 2012)
guidelines, etc?
3. To what extent have the organization                EPA’s National Security Information Program Could
classification policies, procedures, rules, and        Be Improved (Report No. 12-P-0543 issued
regulations been effectively followed and              June 18, 2012)
administered?
                                                       EPA Does Not Adequately Follow National Security
                                                       Information Classification Standards (Report No.
                                                       14-P-0017 issued November 15, 2013)
4. To what extent, if any, and in what manner have     EPA Does Not Adequately Follow National Security
information and materials been over-classified         Information Classification Standards (Report No.
within the organization?                               14-P-0017 issued November 15, 2013)
5. To what extent, if any, and in what manner have
                                                       EPA’s National Security Information Program Could
policies, procedures, rules, regulations, or
                                                       Be Improved (Report No. 12-P-0543 issued
management practices contributed to any over-
                                                       June 18, 2012)
classifications?
Source: OIG analysis.




14-P-0017                                                                                            22
                                                                                                       Appendix B

                     Errors in the Derivative Documents

                                                                            Number of Documents
                                                              OHS             OIG        NHSRC               Total
                    Description                             (out of 1)4     (out of 7) (Out of 11)         (Out of 19)

      Required Information Was Missing

Document had no date of origin for the document.
                                                                 1               2              7                10
(32 CFR 2001.22(a) and 2001.22(c))

There was no classification authority block.
                                                                 0               0              6                6
(32 CFR 2001.22)

Information in the classification block was
                                                                 1               7              5                13
incomplete or incorrect. (32 CFR 2001.22)

Multiple sources were cited in the classification
                                                                                                                     5
block, but the list of sources was missing.                      0               7              1                8
(32 CFR 2001.22(c))

Page marking had errors. (32 CFR 2001.21(b))                     0               6              5                11

Portion marking had errors. (32 CFR 2001.21(c))                  0               7             11                18

                 Transfer Errors6

Source was not a proper basis for a derivative
                                                                 0               0              3                3
decision. (32 CFR 2001.22(a) and 2001.22(c))

Document contained no classified information so
                                                                 0               0              5                5
it can be declassified. (EO 13526, Section 3.1)

Declassification date was not correctly transferred
from the source document(s) to the derivative                    0               7              6                13
document (32 CFR 2001.22(e))

Other information was incorrectly transferred from
                                                                 0               3              5                8
the source document(s). (32 CFR 2001.22)




4
   We were unable to compare the derivative document to the source document.
 
5
   Only eight of the 19 documents cited multiple sources in the classification block.

6
   We evaluated 18 of the derivative documents for transfer errors since the source for one of the derivative

documents was not available.
 


14-P-0017                                                                                                                23
                                                                                     Appendix C

                   Agency Response to Draft Report

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460




                                          SEP 23 2013
                                                                                   OFFICE OF

                                                                                 ADMINISTRATION

                                                                                 AND RESOURCES 

                                                                                  MANAGEMENT





MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. OPE-FY13-0009,
               “EPA Does Not Sufficiently Follow National Security Information Classification
               Standards,” dated September 6, 2013

FROM:          Craig E. Hooks, Assistant Administrator /s/

TO:            Jeffrey Harris, Acting Deputy Assistant Inspector General
               Office of Program Evaluation

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. The following is a summary of the agency’s overall position, with an attached table
of responses to each of the report recommendations (Attachment 1). For those recommendations
with which the agency agrees, we have provided intended corrective actions and estimated
completion dates. For report recommendations the agency does not agree with, we have
explained our position.

Overall Position

The agency agrees with recommendations 1, 2 and 5-8. The responsible office, OARM, agrees
with the intent of recommendation 9 but proposes another means to address the recommendation.
The responsible office, OHS, disagrees with recommendations 3 and 4; OARM proposes an
alternative for recommendation 4.




14-P-0017                                                                                      24
Recommendations for Changes to Draft Report Text

The report would present a clearer picture of the agency’s classification program if it mentioned
its small size. Since 2004, the agency has originally classified only eight documents. Our
derivative classification program is also small. In a 2011 message to the EPA, the Acting
Director of the Information Security Oversight Office said, “EPA only has one OCA; unlike at
almost all other agencies, it may not be delegated. Additionally, unlike almost all other agencies,
it has a very minute amount of classification activity” (Attachment 2).

The agency believes the phrase “flawed numerical data” (“At a Glance” and p. 7) implies that the
scientific report has flawed data. The scientific report does not have flawed data, and we
recommend that the text be changed to reflect that fact. We agree that the Originally Classified
Security Classification Guide contained two numbers that were incorrectly transferred from the
source document.

The agency recommends revising the OIG finding that the scientific report and classification
guide, once corrected, needs to go through the original classification process again. ORD
reported to the OIG one marking error (a “U//FOUO” marked paragraph containing one Secret
fact) which will be corrected. Because the Secret fact was already classified elsewhere in the
scientific report, the documents may not need to go through the original classification process.
We recommend that the documents must be evaluated to determine if they need to go through the
original classification process again.

OARM, ORD and OHS will continue collaborating to strengthen the agency’s classification
program.

If you have questions regarding OARM responses, please contact Tami Franklin, Director of the
OARM/OA/ Security Management Division at (202) 564-9218. For questions on ORD
responses, please contact Deborah Heckman at 202-564-7274. For questions on OHS responses,
please contact Juan Reyes, Acting Associate Administrator, at (202) 564-4188.

Attachments (2)

cc: 	Lek Kadeli
     Juan Reyes
     John Showman
     Steve Blankenship
     Brandon McDowell
     Eric Lewis
     Christine Baughman




14-P-0017                                                                                        25
                AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


Agreements

                                                                                    Estimated
              Recommendation/                    High-Level Intended
No.                                                                               Completion by
              Responsible Office                 Corrective Action(s)
                                                                                  Quarter and FY
        Responsible Office: OARM

        Work with the appropriate EPA
        organization to:
        a. Correct the marking errors
           in the two originally            The National Security               The NSI Program
           classified documents             Information Program Team will       Team review will
           reviewed by the OIG (the         review all corrections and          be completed within
1 a-c
           scientific report and security   changes submitted, to ensure        30 calendar days of
           classification guide).           the markings are appropriately      receipt of a
        b. Change the classification        placed and at the correct           document.
           levels for portions of the       classification level.
           scientific report.
        c. Correct the erroneous data
           in the security classification
           guide.
                                            The NSI Program Team will
                                            ensure that CY13 OCA training
        Responsible Office: OARM            complies with all regulatory
                                            requirements. (NOTE: EO             Fully compliant
        Provide annual Original             13526 training requirements are     OCA training will
 2      Classification Authority            stated in terms of calendar year.   be provided to the
        training to the Administrator       The OIG response template           Administrator by
        that complies with the              calls for completion dates by       the end of Q1FY14.
        regulatory requirements.            fiscal year. As a result, some
                                            lines in this document refer to
                                            CY and FY.)




14-P-0017                                                                                          26
                                                                                    Estimated
             Recommendation/                     High-Level Intended
No.                                                                               Completion by
             Responsible Office                  Corrective Action(s)
                                                                                  Quarter and FY

       Responsible Office: ORD
                                            ORD will prepare and submit to      The document will
       Submit to the NSI program
                                            the NSI Program Team an             be submitted to the
       team a single, unclassified
 5.                                         unclassified classification guide   NSI Program Team
       classification guide that covers
                                            to cover past and future            by the end of
       both past and future EPA
                                            scientific research.                Q1FY14.
       scientific research to replace the
       multiple guides.


       Responsible Office: OARM

       Assist the appropriate EPA
       organizations in bringing the
       derivative documents reviewed                                          The NSI Program
       by the OIG into compliance                                             Team will complete
       with EO 13526 and 32 CFR                                               its review
       2001. For example:                                                     of/assistance with
       a. Attach or incorporate a           OARM will assist appropriate      the documents
           source document list if          EPA organizations in bringing     within 30 days of
           derived from multiple            the derivative documents          receipt. The
           sources                          reviewed by the OIG into          documents cannot
       b. Correct the classification        compliance with EO 13526 and be brought into
 6.
           blocks to include the name       32 CFR Part 2001. The             compliance without
           and position or personal         cooperation of the appropriate    the active
           identifier of the derivative     EPA organizations (ORD, OHS, involvement of the
           classifier                       and the OIG) is essential for the appropriate EPA
       c. Declassify proposal reviews       completion of this                organizations.
           and other documents              recommended action.               OARM anticipates
           deemed over-classified                                             completion by the
       d. Convert derivatively                                                end of Q4FY14.
           classified documents to
           original classifications
       e. Ensure consistency in
           portion markings from
           sources applied to original
           documents




14-P-0017                                                                                          27
                                                                                  Estimated
              Recommendation/                   High-Level Intended
No.                                                                             Completion by
              Responsible Office                Corrective Action(s)
                                                                                Quarter and FY

                                          The NSI computer-based              Supplemental
                                          refresher training module for       outreach for CY13
                                          CY13 has been developed,            will be completed
                                          although not yet disseminated.      and provided to
       Responsible Office: OARM
                                          The NSI Program Team, to be         clearance holders
                                          fully consistent with regulatory    by the end of
 7.    Provide NSI annual refresher
                                          requirements, will supplement       Q1FY14. Refresher
       training that is consistent with
                                          the training with outreach          training for CY14
       regulatory requirements.
                                          material. CY14 computer-based       will be provided to
                                          refresher training will be fully    clearance holders
                                          consistent with regulatory          by the end of
                                          requirements.                       Q1FY15.

       Responsible Office: OARM
                                          Computer-based derivative           Derivative classifier
                                          classifier training will meet the   training will be
 8.    Enforce the requirements in 32
                                          requirements in 32 CFR              developed by the
       CFR 2001.71(d) regarding
                                          2001.71(d)                          end of Q2FY14.
       derivative classifier training.



Disagreements

             Recommendation/                                                       Proposed
No.                                       Agency Explanation/ Response
             Responsible Office                                                   Alternative

      Responsible Office: OHS
                                          (Note: OHS provided the
                                                                              Note: OHS did not
      Work with the assistant             following to OARM.) “OHS
                                                                              provide to OARM a
      administrator for OARM to           non-concurs with
 3                                                                            proposed alternative
      develop a transparent process for   recommendation No. 3. It is the
                                                                              to include in this
      approving classification guides     current EPA position supported
                                                                              response.
      within the 30 days specified in     by ISOO that Classification
      EO 13526.                           Guides are not required.”

      Responsible Office: OHS
                                          (Note: OHS provided the             By the end of
      Work with the assistant             following to OARM.) “OHS            Q2FY14,
 4    administrator for OARM to           non-concurs with                    information
      develop a transparent process for   recommendation No. 4. Under         classified by EPA
      declassifying, within 60 days,      the current and existing            will be declassified,
      information classified by EPA.      delegation, it is the               if appropriate,


14-P-0017                                                                                        28
             Recommendation/                                                          Proposed
No.                                        Agency Explanation/ Response
             Responsible Office                                                      Alternative
                                           responsibility of OARM to            within 60 days of
                                           develop a transparent                the NSI Program
                                           declassification review process      Team’s receipt of
                                           in accordance with EO 13526.”        the request.

                                           OARM has a draft process for
                                           declassifying, within 60 days,
                                           information classified by the
                                           EPA. OARM has traditionally
                                           included OHS in this process as
                                           a collaborative partner, but
                                           given OHS’s position and the
                                           OIG’s finding that
                                           declassification must be
                                           timelier, OARM accepts
                                           responsibility for this
                                           recommendation and will work
                                           with subject matter experts to
                                           provide declassification
                                           recommendations for the
                                           Administrator’s approval.
                                           We fully agree with the intent
      Responsible Office: OARM             of this recommendation, but
                                           propose that the reminder be
      Remind the heads of EPA              sent from the director of the
      organizations that their staff who   Security Management Division
      hold a security clearance should     to the NSI representatives
      have included in their               newly appointed by each
                                                                                The director of the
      performance evaluation a critical    organization’s head to act as
                                                                                Security
      element or item on the               that organization’s liaison to the
                                                                                Management
 9    designation and management of        NSI Program Team. The
                                                                                Division will send
      classified information if the        designations were made in
                                                                                the reminder by the
      individual is a security manager     response to an August 16, 2013,
                                                                                end of Q1 FY14.
      or specialist or has duties that     formal request from the AA,
      significantly involve creating or    OARM to the heads of EPA
      handling classified information      organizations. The NSI
      (e.g., derivative classifiers and    representatives will ensure that
      NSI representatives).                all cleared employees have the
                                           appropriate critical element
                                           added to their PARS.




14-P-0017                                                                                           29
                                                                                      Appendix D

  Email From the Information Security Oversight Office

The following email was submitted by ISOO to the EPA on June 1, 2011.

Subject: EPA Classification Policy

EPA has asked ISOO if it needs to create a classification guide in accordance with Section 2.2 of
Executive Order 13526 (''the Order").

Finding: ISOO does not believe that EPA needs to create a classification guide. ISOO does not
believe that EPA is in violation of section 2.2 of the Order. ISOO continues to believe that EPA
has strong and sufficient controls in place with regard to its original classification program.

Background and supporting observations:
1. In the past seven fiscal years, EPA has originally classified a total of six documents. See FY
list at the bottom of this e-mail message.
2. EPA is one of few agencies granted Original Classification Authority by the President. Under
the Order, only the Administrator serves as the OCA and she may not delegate this authority.
EPA's situation is unique in that the OCA may not be delegated and it rarely needs to exercise
this OCA authority.
3. EPA has developed a meticulous and rigorous process for deciding to originally classify
records. ISOO conducted a detailed on-site review in September 2005 that among other items,
commended EPA for its decision-making process. At that time, ISOO found that EPA's detailed
process ensured that each possible classification decision was well-thought out, rationale, and
informed. Further, ISOO found that this process involved all appropriate staff and offices,
including the Office of the Administrator.
4. Since this detailed on-site audit, ISOO has met yearly with EPA officials to discuss its
classified national security program. Additionally, ISOO is in regular communication with EPA
security staff to discuss EPA's classified national security program. Finally, ISOO regularly
monitors EPA's classified national security program and evaluates EPA's reports and responses
to ISOO data calls and requests.
5. EPA has strong processes in place to ensure that classification decisions are appropriate and
in accordance with the Order.
6. The purpose of Section 2.2 of the Order is to ensure that those agencies that have several
OCAs and make many classification decisions are doing so in an effective and efficient manner
that aids the classification system by ensuring uniformity and consistency. EPA only has one
OCA; unlike at almost all other agencies, it may not be delegated. Additionally, unlike almost all
other agencies, it has a very minute amount of classification activity.

Concluding remarks: While the exact letter of the Order seems to suggest that all agencies
granted OCA authority by the President must have classification guides, there is still room for
judgement (sic) and common sense. In our view, looking at the program and its activity in its


14-P-0017                                                                                         30
entirety, EPA's program is fully functioning and has the appropriate checks and balances in
place to ensure that its classification program is consistent and effective.

2010-
0riginal-0
Derivative-16

2009-
0riginal- 0
Derivative-4

2008-
0riginal-3
Derivative-10

2007-
0riginal-0
Derivative-13

2006-
0riginal-0
Derivative-46

2005-
0-2
D-5

2004-
0-1
D-0




14-P-0017                                                                                     31
                                                                                Appendix E

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Principal Deputy Assistant Administrator for Research and Development
Associate Administrator for Homeland Security
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Director, Office of Regional Operations
Director, Office of Administration, Office of Administration and Resources Management
Director, Security Management Division, Office of Administration and Resources Management
Chief, Personnel Security Branch, Office of Administration and Resources Management
Team Leader, National Security Information Program Team, Office of Administration and
       Resources Management
Director, National Homeland Security Research Center, Office of Research and Development
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Policy and Resource Management, Office of
       Administration and Resources Management




14-P-0017                                                                                32
